      U.S. Department of the Interior
          Office of Inspector General




 Administration of the Chesapeake Bay
Gateways Network and Grant Program
                   National Park Service
                                July 2006
           Report No. W-IN-NPS-0006-2005
Photos courtesy of Office of Inspector General (OIG)
evaluators Bryan Brazil and Rebecca Booth
                 United States Department of the Interior

                                  Office of Inspector General
                                       Western Region
                                            Federal Building
                                     2800 Cottage Way, Suite E-2712
                                       Sacramento, California 95825




                                                                             July 28, 2006
                                                                                      7430


Memorandum

To:            Assistant Secretary for Fish and Wildlife and Parks

From:          Michael P. Colombo
               Regional Audit Manager

Subject:       Evaluation Report – Administration of the Chesapeake Bay Gateways
               Network and Grant Program, National Park Service
               (Report No. W-IN-NPS-0006-2005)

         This report presents the results of our evaluation of the National Park Service’s
(NPS) administration of the Chesapeake Bay Gateways Network (Network) and Grant
Program (Grant Program), authorized by the 1998 Chesapeake Bay Initiative Act
(Initiative Act). (Highlights of the Initiative Act are outlined in Appendix 1.) Our
objective was to determine whether NPS was (1) meeting the objectives of its role as
coordinator of the Network and (2) ensuring that Grant Program activities complied with
the Initiative Act. Our scope and methodology are detailed in Appendix 2.

        We are pleased to report that NPS is making progress in meeting Network
objectives and has responded to congressional criticism by improving its monitoring of
the Grant Program. We also believe, however, that NPS could further improve its
monitoring to ensure project completion and recommended that it terminate relationships
with grantees failing to perform and that it adequately review grant fund expenditures.

       In its May 19, 2006 response (Appendix 3 of the attached report), NPS concurred
with our recommendations. Based on the response, we consider the recommendations to
be resolved and are referring them to the Assistant Secretary for Policy, Management and
Budget for tracking of implementation (see Appendix 4 of the attached report). We will
include information from this report in our next semiannual report to Congress.
        We appreciate the cooperation shown by NPS staff during our review. A
response to this report is not required. However, if you have any questions regarding the
report, please call me at (916) 978-5653.

cc:    Director, National Park Service
       Director, National Park Service Chesapeake Bay Program Office
       Audit Liaison Officer, Assistant Secretary for Fish and Wildlife and Parks
       Audit Liaison Officer, National Park Service




                                            2
                                                       Contents

                                                                                                                          Page

Protecting the Chesapeake Bay............................................................................................1

Results of Evaluation ...........................................................................................................3
  Timely Completion of Grant Projects.............................................................................4
  Adequate Cost Reviews ..................................................................................................5

Recommendations................................................................................................................7
  NPS Response and OIG Reply .......................................................................................7

Appendices
  1               Highlights of the Chesapeake Bay Initiative Act of 1998 ..............................8
  2               Scope and Methodology .................................................................................9
  3               NPS Response...............................................................................................14
  4               Status of Recommendations..........................................................................16




Acronyms

EPA .................................................................................Environmental Protection Agency
NM ........................................................................................................ National Monument
NPS .................................................................................................... National Park Service
NWR .............................................................................................National Wildlife Refuge
OIG ........................................................................................... Office of Inspector General
OMB ..............................................................................Office of Management and Budget




                                                                i
                        Protecting the Chesapeake Bay
The Chesapeake Bay, extending for 180 miles from southernmost Virginia to
northernmost Maryland, is the largest and most biologically diverse estuary in the United
States. Through centuries of human settlement, the Bay and its tributaries have sustained
the region’s economy and defined its traditions and cultures. The Bay has 12,000 miles
of shoreline, and more than
16 million people live within its
64,000 square-mile watershed.
With development has come a
decline in the Bay’s ecological
health, resulting in the
establishment in the 1980s of the
Chesapeake Bay Program, a multi-
jurisdictional partnership that has
worked to restore and protect the
Bay and its resources.

In 1998, Congress enacted the
Chesapeake Bay Initiative Act (Appendix 1). The primary purpose of the Initiative Act
was to increase public awareness about and access to the Bay by creating a network of
“gateways,” defined as parks, refuges, historic sites, water trails, or other special places in
and around the Bay, through which the public could experience the Bay’s resources.

The Environmental Protection Agency (EPA) and NPS are partners in administering the
Chesapeake Bay Gateways Network (hereafter referred to as Network). Essentially, EPA
                                                               is responsible for improving
                                                               water quality in the Bay,
                                                               while NPS is responsible for
                                                               bolstering the public’s
                                                               connection to the Bay by
                                                               making it easier to see and
                                                               experience the Bay. NPS
                                                               objectives are to raise public
                                                               awareness by (1) enhancing
                                                               interpretation and education
                                                               about the Bay’s special
                                                               places and stories;
(2) increasing access to these places through information, maps, guides, a system of
gateways, and linked land and water routes; and (3) helping the public appreciate the part
they play in the Chesapeake’s survival and ways they can become involved in conserving
and restoring the Chesapeake’s natural, cultural, historical, and recreational resources.
The Grant Program, also established under the Initiative Act, provides grant monies to
both governmental and nongovernmental agencies to assist NPS in meeting Network
objectives.



                                              1
In fiscal years 2001 through 2004, Congress
appropriated about $6.4 million to NPS for
implementing the Initiative Act. NPS used
about $2.1 million to pay for salaries and
other expenses related to creating and
                             administering
                             the Network.
                             NPS used the
                             remaining
                             $4.3 million for
                             grants. These grants, ranging from $5,000 to $150,000, were
                             awarded annually to federal and nonfederal parks and
                             nonprofit organizations to complete a variety of projects.
                             These projects include land and water trail signs,
                             informational kiosks, wayside interpretive panels, expanded
                             recreational facilities, and habitat and cultural restoration.


                                           Schedule of Funds Used
     Fiscal                                     Grant                  Network-Wide               Administration
     Year         Appropriated                 Program                   Initiatives                 Costs*
      2001               $798,043                    $556,582                   $235,905                       $5,555
      2002            $1,199,829                     $828,895                   $370,934                             $0
      2003            $1,964,041                   $1,381,206                   $563,868                     $18,967
      2004            $2,445,703                   $1,516,560                   $805,218                   $123,926
     Total            $6,407,616                   $4,283,243                 $1,975,925                   $148,448
* NPS spent an additional $1.6 million in fiscal years 2001 through 2004 for salaries, travel, training, and equipment.
These administrative costs supported activities associated with the Network, the Grant Program, and the long-standing
Chesapeake Bay Program.


Members of Congress have expressed their concerns about Grant Program achievements.
Specifically, in February 2005, the House of Representatives Subcommittee on Interior,
Environment, and Related Agencies for the Committee on Appropriations, criticized
NPS’s overall management of the Grant Program, citing the lack of Grant Program
accomplishments and poor monitoring of grant recipients.




                                                           2
                              Results of Evaluation
NPS has made progress in meeting its objectives to
bolster the public’s connection to the Bay. During
fiscal years 2001 to 2004, NPS focused its attention
on coordinating and establishing new gateways for
the Network, planning educational and interpretive
programs for the public, and providing technical
assistance to individual gateways. Its efforts have
paid off in a substantial increase in the number of
gateways - from 23 in 2000 to over 140 in 2005. In
fiscal year 2005, in response to criticism by a House
of Representatives subcommittee report, NPS also
took significant steps to improve the overall
administration and monitoring of its Grant Program,
as follows:

   Administration

   ¾ Ensured that about two-thirds of appropriated funds were used for the Grant
     Program, consistent with NPS’s action plan to improve its management of the
     Network.

   ¾ Developed a strategic plan for the award of grants.

   ¾ Developed an outcome-based measurement process to evaluate grant
     effectiveness.

   ¾ Developed and used a checklist to certify that grantees met all applicable
     requirements prior to grant award.

   ¾ Improved guidelines for awarding grants to federal parks.

   Monitoring

   ¾ Completed a comprehensive review and plan of action for managing incomplete
     fiscal year 2000-2002 grants.

   ¾ Instituted electronic quarterly reporting reminders for grantees and adopted
     measures to strictly enforce quarterly grantee reporting requirements, including
     restricting reimbursement if reports are delinquent.

   ¾ Issued guidance to grantees requiring supporting documentation, including
     matching and overhead requirements, for NPS grant project cost reviews.




                                            3
   ¾ Expanded information for annual grantee workshops to include guidance on
     financial management and responsibilities.

   ¾ Provided additional grant management training for NPS staff.

We commend these improvements but believe that NPS should further strengthen its
monitoring of the Grant Program by (1) ensuring the timely completion of grant projects
and (2) adequately reviewing grantee project costs.

Timely Completion of Grant Projects
NPS must terminate relationships with grantees that lack valid reasons for not completing
their projects in accordance with the terms of the grant agreement. As shown on the
following table, not all grant funds have been paid out or projects completed.


                   Status of Grant Funds as of June 10, 2005
    Fiscal           Grant Program                  Amount Paid       Percent Paid of
    Year         Total      Grants Awarded          to Grantees       Total Award
    2001          $556,582        34                      $431,498           78
    2002          $828,895        40                      $457,032           55
    2003        $1,381,206        32                      $552,680           40
    2004        $1,516,560        33                      $147,250           10
    Total       $4,283,243       139                    $1,588,460           37

NPS personnel acknowledged that the lack of monitoring had contributed to project
delays, especially during fiscal years 2001 to 2004, when NPS was focusing on
                                       establishing the Network of gateway sites and water
                                       trails. As previously discussed, NPS took steps in
                                       fiscal year 2005 to improve its monitoring in
                                       response to the Congressional committee’s report.
                                       However, it has not terminated the grants of
                                       grantees that lack acceptable reasons for delays
                                       beyond grant project completion dates.

                                      Of the 23 grant projects tested, 18 had experienced
                                      delays, which ranged from 9 months to about
                                      3 years (Appendix 2). Some of the reasons given
                                      for the delays were acceptable, in that the delays
                                      were precipitated by conditions beyond the ability
                                      of the grantee to control. These reasons included
                                      (1) changing environmental conditions, such as
                                      damage caused by Hurricane Isabel in 2003 or
nesting of the tiger beetle, which temporarily halted project work; (2) redesign of project


                                             4
work, such as “wayside interpretive panels,” to meet NPS standards; and (3) meeting
rigorous internal review processes required for construction on federal park land.

Of the 18 projects, 9 lacked acceptable reasons for not being completed. These reasons
ranged from turnover of key grantee personnel to grantees taking on too many projects at
one time. For example:

   ¾ Only minimal work has been completed on
     a fiscal year 2003 grant for $75,000, of
     which $25,000 was advanced, to provide
     landscaping and plantings at trail access
     points, including interpretive wayside
     exhibits on the York River Water Trail. The
     grant agreement stipulated completion by
     July 31, 2004. This project was managed
     solely by the grantee’s executive director,
     who resigned his position during the grant period, leaving financial records in
     disarray. The loss of key personnel was not a valid excuse for delaying the
     project. When apprised of this situation, NPS should have quickly terminated the
     grant and sought reimbursement for the $25,000.

   ¾ A fiscal year 2002 grant to develop a waterproof map and six interpretive wayside
     signs for the Choptank and Tuckahoe Rivers was not completed by the stipulated
     date of August 30, 2003. The project has been delayed more than 2 years. We
     concluded that the grantee had undertaken too many other projects and could not
     complete them in a timely manner. Taking on too many projects was not a valid
     excuse for delaying the project. As a partner, NPS should have taken measures to
     help the grantee complete the project. If these measures again failed, NPS then
     should have quickly terminated the grant and sought appropriate reimbursement.

If NPS cannot obtain the desired grant performance through improved grant workshops
and monitoring, it should terminate the grants, obtain reimbursement from the grantees,
and seek new grantees. Such action would help ensure that scarce resources are used to
comply with the intent of the Initiative Act. Ensuring the timely completion of grant
projects is critical to the ability of NPS not only to meet the requirement of the Initiative
Act to conserve, restore, and interpret historic, cultural, recreational, and natural
resources within the Chesapeake Bay Watershed, but also to demonstrate Grant Program
accomplishments.

Adequate Cost Reviews
Our review of grantee files and evaluation of grantee costs to produce the goods and
services for 23 grant projects confirmed the need to periodically assess whether grant
project costs, such as labor, materials, in-kind contributions, and administrative charges,
were accurate, allowable, and reasonable in compliance with Office of Management and
Budget (OMB) guidelines. Of the 23 grant files tested, we concluded that 18 lacked


                                              5
adequate reviews of the actual costs incurred by grantees to produce the goods and
services stipulated in the grant agreement. In addition, all 23 files lacked evidence that
reviews were performed to ensure that grantees met the Initiative Act’s dollar-for-dollar
grantee matching requirement and the 10-percent limit on administrative costs. For
example:

   ¾ NPS provided a grant of $57,400 to the U.S.S. Constellation Museum to overhaul
     its audio tour and to modify exhibits to accommodate the tour. The audio tour
     allows visitors to use a hand-held device to learn the history of the U.S.S.
     Constellation and its presence on the Bay. The Museum improperly used
     expenditures of $41,079 after the grant project period ended to help meet the
     matching requirement. As such, these expenditures violate Grant Program
     guidelines and OMB guidance. NPS should comply with its own guidelines.

While previously cited NPS improvements in Grant Program monitoring will greatly
assist in cost reviews, NPS use of OMB guidance would provide a more thorough review
of project costs, including ensuring adherence to the grantee matching requirement and
the administrative cost limitation. For costs determined to be unallowable, NPS should
seek reimbursement from the grantees in accordance with OMB guidance.




                                             6
                               Recommendations
To ensure the timely completion of grant projects at reasonable and allowable costs, we
recommend that the Director, National Park Service, require Grant Program managers to:

   1. Terminate relationships with grant recipients that lack valid reasons for not
      completing their projects in accordance with the terms of the grant agreements.

   2. Periodically assess whether grant project costs, such as labor, materials, in-kind
      contributions, and administrative charges, were accurate, allowable, and
      reasonable in compliance with OMB guidelines.

NPS Response and OIG Reply
In its May 19, 2006 response, NPS concurred with our recommendations to “strengthen
the NPS guidance” for managing the Grant Program. Overall, NPS agreed to eliminate
the backlog of incomplete grant projects, put all grants on a reasonable and documented
timeframe for completion, establish procedures for review, and perform third-party audits
of grants to ensure that project costs are in compliance with OMB guidelines. The
response stated that with implementation of the changes, “the Chesapeake Bay Gateways
Network will continue to fulfill the intent of Congress to foster stewardship of the
Chesapeake Bay and . . . be a model for collaborative conservation.”

Based on the response, we consider the recommendations to be resolved and are referring
them to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation. The status of the recommendations is shown in Appendix 4.




                                            7
                                                              Appendix 1
                  Highlights of the Chesapeake Bay Initiative Act of 1998
                                           (Public Law 105-312, Title V)

The Secretary of the Interior, in cooperation with the Administrator of EPA, shall
provide technical and financial assistance in cooperation with other federal
agencies, state and local governments, nonprofit organizations, and the private
sector to:

¾ Identify, conserve, restore, and interpret natural, recreational, historical, and
  cultural resources within the Chesapeake Bay watershed.

¾ Identify and use the collective resources as Chesapeake Bay gateway sites for
  enhancing public education of and access to the Chesapeake Bay.

¾ Link the Chesapeake Bay gateway sites with trails, tour roads, scenic byways,
  and other connections as determined by the Secretary.

¾ Develop and establish Chesapeake Bay water trails comprising water routes
  and connections to Chesapeake Bay sites and other land resources within the
  Chesapeake Bay watershed.

¾ Create a network of Chesapeake Bay gateway sites and water trails.

Components of the Chesapeake Bay network of gateways and water trails may
include (1) state or federal parks or refuges; (2) historic seaports;
(3) archaeological, cultural, historical, or recreational sites; and (4) other public
access and interpretive sites as selected by the Secretary.

The Secretary, in cooperation with EPA, shall establish a Chesapeake Bay
Gateways Grants Assistance Program to aid state and local governments, local
communities, nonprofit organizations, and the private sector in conserving,
restoring, and interpreting important historic, cultural, recreational, and natural
resources within the Chesapeake Bay watershed.

The Secretary, in cooperation with EPA, shall develop appropriate eligibility,
prioritization, and review criteria for grants. Criteria include the requirements
(1) that nonfederal matching funds, including in-kind contributions of services or
materials, be at least 50 percent of total project costs and (2) that administrative
costs not exceed more than 10 percent of all project costs.




                                           8
                                                                        Appendix 2
                                                             Scope and Methodology
                                                                                Page 1 of 5

The scope of our evaluation, conducted in accordance with the Quality Standards for
Inspections promulgated by the President’s Council on Integrity and Efficiency, included
NPS Network and Grant Program activities for fiscal years 2001 through June 2005. We
visited NPS’s Grant Program office in Annapolis, Maryland, and 19 gateway locations
near and around the Chesapeake Bay (see “Gateway Sites Visited,” page 13) to determine
whether NPS was (1) meeting its stated Network objectives and (2) administering the
Grant Program in compliance with the Initiative Act. To accomplish our evaluation, we
reviewed NPS grant files, evaluated operating procedures, and interviewed NPS program
managers, project coordinators, and interpretive specialists to complete the following:

¾ An evaluation of grant eligibility criteria and selection process to assess use of
  competition.

¾ An assessment of how Grant Program funds were expended to determine whether the
  expenditures met objectives of the Initiative Act.

¾ A judgmental selection of 23 of 106 grants awarded during fiscal years 2001 through
  2003 (see the following table) to include a variety of grant recipients, locations, and
  goods and services. We did not include grants awarded in fiscal years 2004 and 2005
  because sufficient time had not elapsed for grantees to complete their projects in
  accordance with the terms and conditions of the grant.

¾ A validation, for the 23 grants selected, as to whether the stipulated goods and
  services were produced and the costs to produce them were reasonable and in
  accordance with OMB guidance. We also evaluated whether grantee matching
  requirements were met and the extent to which grantee administrative costs were paid
  for by the grant.




                                             9
                                                                             Appendix 2
                                                                  Scope and Methodology
                                                                                      Page 2 of 5
                                      Grants Reviewed
                                                   Grant
Year    Grant Recipient             Gateway       Award               Deliverable            Delay
2001   Audubon Society of     Pickering Creek           $6,580 Visitors use traditional   Yes
       Maryland-Wash.,        Audubon Center                   workmen’s tools while    17 mo.
       D.C.                                                    they learn about the Bay
2001   Chesapeake Bay         Chesapeake Bay           $19,200 Visitors hear real-life     No
       Maritime Museum        Maritime Museum                  stories from watermen
                                                               and decoy carvers
2001   City of Norfolk,       Norfolk Water Trail      $23,250 Produce new maps,          Yes
       Bureau of Parks and    System                           signage, and new or      34 mo.*
       Forestry                                                improved launch points
2001   National Park          Yorktown Visitor         $10,000 Produce exhibits at        Yes
       Foundation             Center and Battlefield           Yorktown Visitor Center 33 mo.*
2001   Patriots of Fort       Fort McHenry              $9,380 Develop a new living        No
       McHenry                National Monument                history program
                              and Historic Shrine
2001   Shady Side Rural       Captain Salem Avery       $8,900 Produce interpretive           No
       Heritage Society, Inc. House                            panels, kiosk, wayside
                                                               exhibits, and mooring
                                                               buoy
2001   The Wildfowl Trust     Chesapeake Bay           $25,000 Produce orientation            Yes
       of North America,      Environmental Center             kiosk, interpretive          34 mo.*
       Inc.                                                    panels, map, and guide
2001   Ward Museum of         Ward Museum of           $30,000 Produce museum                 Yes
       Wildfowl Art           Wildfowl Art                     interpretive panels,         34 mo.*
                                                               perform habitat
                                                               restoration, produce trail
                                                               with interpretive signs
2001   Audubon Society of     Pickering Creek          $44,000 Construct “Farm to             Yes
       Maryland-Wash.,        Audubon Center                   Bay” interpretive trail      22 mo.
       D.C.                                                    with accompanying
                                                               exhibits, viewing
                                                               platforms, and a trail
                                                               guide
2002   Friends of Concord     Concord Point            $20,000 Produce interpretive           Yes
       Point Lighthouse       Lighthouse                       panels and new exhibits      23 mo.*
                                                               inside the “Keeper’s
                                                               House”
2002   Old Harford Town       Choptank & Tuckahoe      $28,700 Produce new waterproof         Yes
       Maritime Center        Rivers Water Trail               maps and six new             22 mo.*
                                                               wayside interpretive
                                                               panels




                                                  10
                                                                               Appendix 2
                                                                    Scope and Methodology
                                                                                         Page 3 of 5
                                      Grants Reviewed
                                                   Grant
Year    Grant Recipient             Gateway       Award                 Deliverable           Delay
2002   Remember, Inc.         Historic Annapolis          $8,190 Develop and present live      No
                              Gateway – City Dock                performances at three
                                                                 gateway sites
2002   Shady Side Rural       Captain Salem Avery        $21,615 Develop interpretive          Yes
       Heritage Society, Inc. House                              program for school          11 mo.
                                                                 children and teacher
                                                                 guide
2002   Sotterley Foundation, Sotterley Plantation        $63,330 Construct access              Yes
       Inc.                                                      improvements, including     24 mo.*
                                                                 a pier, outdoor learning
                                                                 center, and interpretive
                                                                 panels
2002   The Wildfowl Trust     Chesapeake Bay             $13,750 Produce three new signs       Yes
       of North America,      Environmental Center               and four educational        22 mo.*
       Inc.                                                      workshops
2002   UMD Center for         Chesapeake Biological      $30,058 Produce 5 three-panel         Yes
       Environmental          Laboratory                         kiosks                      22 mo.*
       Studies
2003   Center for             Kiptopeke State Park       $88,000 Produce portable               Yes
       Conservation           and Eastern Shore of               exhibits, videos, and        9 mo.*
       Biology, College of    Virginia NWR                       interpretive scripts
       William and Mary
2003   Fairfax County Park    Riverbend Park and         $20,000 Produce 14 wayside            Yes
       Authority              Great Falls                        signs                       12 mo.*
                              Park
2003   Mathews County         Mathews Blueways           $45,060 Expand parking,                Yes
       Visitor and            Water Trails                       produce wayside              9 mo.*
       Information Center                                        exhibits, and launch
                                                                 improvements
2003   Mattaponi and          York River Water           $75,513 Produce 20 acres of           Yes
       Pamunkey Rivers        Trail                              landscaping and             12 mo.
       Association                                               plantings at nine trail
                                                                 access points and
                                                                 interpretive panels
2003   Potamac Trail          Piscataway Park and        $40,500 Construct trail               Yes
       Council                Fort Washington Park               improvements and six        12 mo.*
                                                                 new wayside signs




                                                    11
                                                                                Appendix 2
                                                                     Scope and Methodology
                                                                                       Page 4 of 5
                                          Grants Reviewed
                                                       Grant
Year      Grant Recipient               Gateway       Award              Deliverable        Delay
2003     Sotterley Foundation, Sotterley Plantation        $28,000 Restore, display, and     Yes
         Inc.                                                      interpret an old        11 mo.*
                                                                   Chesapeake Bay log
                                                                   canoe
2003     U.S.S. Constellation     U.S.S. Constellation     $57,400 Create new audio tour      No
         Museum                   Museum

 *Number of months delayed as of June 30, 2005.
 Project has yet to be completed.




                                                      12
                Appendix 2
     Scope and Methodology
                 Page 5 of 5




13
       Appendix 3
     NPS Response
         Page 1 of 2




14
       Appendix 3
     NPS Response
         Page 2 of 2




15
                                                      Appendix 4
                                       Status of Recommendations



Recommendations         Status              Action Required

    1 and 2       Resolved;           We will refer the
                  Not Implemented     recommendations to the Assistant
                                      Secretary for Policy,
                                      Management and Budget for
                                      tracking of implementation.




                                 16
